               TIRNO-99-D-0005, Report on Compliance With
              Requirements Applicable to Major Programs and
                  on Internal Control Over Compliance in
              Accordance With the Office of Management and
                  Budget Circular A-133, Fiscal Year 2003

                                 August 2004

                     Reference Number: 2004-1C-136




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            August 9, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               TIRNO-99-D-0005, Report on Compliance With Requirements
                              Applicable to Major Programs and on Internal Control Over
                              Compliance in Accordance With the Office of Management and
                              Budget Circular A-133, Fiscal Year 2003 (Audit #20041C0236)


       The Defense Contract Audit Agency (DCAA) audited the contractor’s compliance with
       the requirements described in the Office of Management and Budget Circular A-133
       Compliance Supplement that are applicable to its major Federal Government programs.
       The DCAA also audited the contractor’s January 8, 2004, certified final indirect cost rate
       proposal and related books and records for reimbursement of Fiscal Year 2003 incurred
       costs. The purpose of the audit was to determine the allowability and allocability of
       direct and indirect costs and form the basis for negotiated indirect cost rates for the
       period ended October 5, 2003.
       The DCAA questioned $49,812 of overhead and $89,234 of General and Administrative
       (G&A) costs. The Internal Revenue Service’s (IRS) portion of the questioned costs
       were $1,183 in overhead and $4,336 in G&A costs. In addition, the DCAA reallocated
       $211,990 of corporate G&A expenses to the sponsors. This resulted in an increased
       allocation to the IRS of $159,076.
       The DCAA noted claimed direct costs, subject to the qualification stated below, are
       provisionally approved pending final acceptance. The audit of direct costs disclosed no
       exceptions at this time.
       The DCAA stated that another Federal Government audit organization has audit
       responsibility for the direct costs claimed on programs identified as Special Projects.
       The DCAA was able to evaluate the indirect costs applicable to this organization.
                                            2

However, the DCAA was unable to satisfy itself as to the contractor’s compliance with
Circular A-133 requirements or the allowability of the direct costs. The DCAA qualified
its audit report because results of the assist audits evaluating these costs had not been
received.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
